                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A06070032                                                                       Page 1 of 1



                  An institution' notified us that it was proceeding with an investigation of a masters
          student2who allegedly fabricated and falsified data while working for an NSF-funded PI.' We
          concurred with the institution and referred an investigation. The institution's investigation
          resulted in a finding of misconduct and dismissal of the student from the university. We
          reviewed the institution's report and concluded that the student had fabricated her preliminary
          data to obtain her thesis committee's approval for her research topic and had subsequently
          fabricated data in her masters thesis as presented to the committee. While the student attributed
          the lack of documentary support for the specific experiments in question to the PI'S failure to
          supervise her and instruct her in the proper recordation of data, she had several years of
          undergraduate research training prior to attending the institution and demonstrated appropriate
          record-keeping for data not included in the thesis.

                   We prepared a report for NSF (attached) recommending a finding of research misconduct;
          a letter of reprimand; a 3 year governmentwide debarment; requirement of certifications from the
          student and assurances from her employer attesting for 3 years following the debarment that no
          proposal or report submitted to NSF by the student contains plagiarism, fabrication, or
          falsification; requirement of certification of ethics training; and a 3 year ban from serving NSF as
          a reviewer. NSF accepted our recommendations (attached).

                    Accordingly, this case is closed.




         -':
          3




                                                                         i

NSF OIG Form 2 (1 1/02)
                                     NATIONALSCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON, VIRGINIA 22230




        OFFICE OF THE
       DEPUTY DIRECTOR




    CERTIFIED MAIL --RETURN RECEIPT REQUESTED




!
           Re: Debarment

    Dear                    ,



    On                  , the National Science Foundation ('WSF") sent you a Notice of Proposed
    Debarment in which NSF proposed to debar you fiom directly or indirectly obtaining the benefits
    of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
    giving rise to NSF's decision to propose your debarment. Specifically,NSF indicated in the
    Notice that the proposed debarment is based upon your falsification and fabrication of data in
    materials submitted to your Masters of Science Thesis Committee. In that Notice, NSF provided
    you with thirty days to respond to the proposed debarment.

    Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
    debarred until                 . Debarment precludes you fi-om receiving Federal financial and
    non-financial assistance and benefits under non-procurement Federal programs and activities
    unless an agency head or authorized designee makes a determination to grant an exception in
    accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
    cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
    subsidies, insurance, payments for specified use, and donation agreements.

    In addition, you are prohibited fiom receiving Federal contracts or approved subcontracts under
    the Federal Acquisition Regulations ("FAR) at 48 CFR Subpart 9.4 for the period of this
    debarment. 2 CFR Section 180.140. During the debarment period, you may not have supervisory
    responsibility, primary management, substantive control over, or critical influence on, a grant,
    contract, or cooperative agreement with any agency of the Executive Branch of the Federal
    Government.
Lastly, please note that, in the Notice of Proposed Debarment, NSF also took the following
actions against you, which continue to remain in effect:

       By                   you must take a research ethics course which emphasizes proper
       data handling procedures, and certify to NSF's Office of Inspector General ("OIG") that
       you have done so.

       For three years from the end of your debarment period, you are required to certify to the
       OIG that any proposals, reports, or papers you submit in connection with NSF-hnded
       research do not contain plagiarized, falsified, or fabricated material.

       For three years from the end of your debarment period, you are required to submit to the
       OIG assurances by a responsible official of your employer that any proposals or reports
       you submit in connection with NSF-hnded research do not contain plagiarized, falsified,
       or fabricated material.

       You are prohibited from serving as a reviewer of NSF proposals until              .


If you have any questions regarding the foregoing, please contact           Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.



                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director
    OFFICE OF M E
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Proposed Debarment and Notice of Research Miscondua.Determination

Dear

As documented in the attached investigative report prepared by NSF's Office of Inspector
General ("01G9'), you intentionally falsified and fabricaceddata in materialssubmitted to your
Masters of Science Thesis Committee. In light of your misconduct, this k t h r serves as$onnaI
notice that the NationalScience Foundation ("NSF") is proposing to-debar you %om dimtly or
indirectly obtaining the benefits of Federal grants for a period of thne years. During your period
of debarment, you will be precluded from receiving Rderal financial and non-financial
assistance and benefits under non-pmurernent M r a l programs and activities. In addition, you
will be prohibited fiom rewiving any Federal contracts or approvedsubcontraots under the
Federal Acquisition Regulations ("FAR"). Lastly, during yourdebannentperiod, you wi!l be
barred fiom having supervisory responsibility,primary management, substantivecontrol over, or
critical influence on, a grant, contract, or cooperative a-pement with any agency of the
Executive Branch of the Federal Government.

In addition to proposing your debarment, I am requiring that youcomplete a mearchethics
course which emphasizes proper data handling procedures, and certify in writing to the OK3 that
you have completed such a course. Furthermore, for three years after the period ofdebarment
expires, I am requiring you to submit certifications and assurances by a ~espomibleofficial of
your employer that any proposals or reports submitted to NSF do notcontain plagiarized,
falsified, or fabricated material. Lastly, you are based Eom serving as a reviewer of NSF
proposals for three years.


Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is Mned as "%hication, falsification, or
plagiarism in proposing or performing mearch funded by NSF ..." 45 CFR 689.]{a). h5F
                                               materials, equipment, or grbcesses, or changing
defines "fasilication" as "manipulating ~esea~lch
                                                                                               Page 2
    or omitting data or ~esultssuch that theresearch is not accurately ~epresentedin the research
    record." 45 CYR &9.l(a)(2). A finding of mearch misconduct requires that:

           (I) There be a signifcant departure from accepted practices of the relevant research
               community; and
           (2) The research misconduct be committed intentionally, or knowingly; or reckbsly;
               and
           (3) The allegation be proven by a preponderance of evidence.

    45 CFR 689.2(c).

    As the OIG's report demonstrates, you falsified and fabricated data that was submitted in pursuit
    of your Masters Thesis. Thus, your conduct unquestionably constitutes falsification. I thcrehre
    conclude that your actions meet the appli~abled~nition   of " m a r c h misconduct" set forth in
    NSF's regulations.

    Pursuant to NSF's regulations, the Foundation must also determine whether to make ajinding of
    misconduct based on a preponderance of the evidence. 45 CFR 689.21~).After reviewing the
    InvestigativeReport, NSF has determined that, based on a p ~ p ~ n d e r a m
                                                                               ofethe evidence, your
    falsification wascommitted intentionally and zomtituted a significant departure 'Ftmamepkd
    practices of the relevant research community. I am, therefore, issuing a findingof r e a r c h
    misconduct against you.

    NSF's regulations establish three categories of actions'(Group I, 11, and 111) that can be taken in
    response to a finding of misconduct. 45 CFR 6"89.3(a). Group I actions include issuing a letter
    of reprimand; conditioning awards on prior approval of particular activities ¶?om N5F;requiring
    that an institution or individual obtain special prior approval of particular activities from NSF;
    and requiring that an institutional represmtativecertifj. as to the accuracy of reports or
I
    certificationsof compliance with particularrequirements. 45 CFR489.3[a)[l).Group I1 adions
    include award suspension or restrictions on designated activities w expenditures; requiring
    special reviews of requests for funding; and requiring comction to the research record. 45 CFR
    689.3(a)(2). Group III actions include suspension or termination of awards; prohibitions on
    participation as N?3F reviewers, advisors or consultants; and debarment or suspension From
    participation in NSF programs. 45 CFR 689.3(a)(3).

    In determining the severity of the sanction to impose for research misconduct, I haveconsidered
    the seriousness of the misconduct; our determination that it uas intentional; and the
    determinationthat it uas an isolated incident. I have also considered other relevant
    circumstances. 43 CFR 689.3@).

    I, 'therefore, take the following actions:

            By                    you must take a research ethics course which emphasizesg~operdata
                                                                                              Page 3
          handling proicedum, and certify to the OKi that you have done so.

          For three years from the end of your debarment period, you are required tocertify to NSF
          that any proposals, reports, or papm you submit in connection with NSF-hnded research
          do not contain plagiarized, falsified, or fabricated material.

          For three years from the end of your debarment period, you are required to submit to NSF
          assurances by a responsible official of your employer that any proposals or reports you
          submit in connection with NSF-funded research do not contain plagiarized, falsified,or
          fabricated material.

           You are prohibited from serving as a reviewer of NSF proposals until

    Debarment

    Regulatory Basisfor Debarment

    Pursuant to 2 CFR 180.800, debarment may be imposed for:

           (b)    Violation of the terms of a public agreement or transaction so serous as to a k t
                  the integrity of an agency program, such as -

                  (1)     A wiIlfU1 failure to perform in accordance with the terms of one or more
                          public agreements or transactions; or


                  (3)     A willful violation of a statutory or regulatory provision or requirement
                          applicable to a public agreement or transaction.

    In any debarment action, the government must establish the cause for debarment by a
    preponderance of the evidence. 2 CFR 180.830. In thiscase, you intentionally Msified data in
    materials presented to your thesis committee after receiving financial support Por your work from
'
    your advisor's NSF award. Thus, your action supports a-causefor debarment under 2 CFR
    180.800(b).


           t hDebarment
    ~ e n ~d

    Debarment must be for a period commensuratewith the seriousness of the causes upon which an
    individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
    exceed three years but, where circumstances warrant, a longer period may be imposed. 2 CMI
    180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
    and mitigating factors set forth in 2 CFR 180.860, we are proposing debarment h r a p e r i d of
    three years.
                                                                                          Page 4
Appeal Procedures for Findine of Research Misconduct and Procedures Governing
Pro~osedDebarment

Appeal Proceduresfor Finding of Research Misconduct

UnderNSFYsregulations, you have 30 days &r receipt of this hi$ter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 4'5 CFR 689.1D(a). Any appealshould be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of mearch misconduct will become final. For your information, we are
attaching a copy of the applicable regulations.

Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarmentprocedur~sand
decision-malung. Under our regulations, you have SO days a k r receipt of this notice tosubinit,
in person or in writing, or through a repentative, information and argument in .opposition to
this debarment. 2 CFR 1 80.820. Comments submitted within i     k 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. If NSFdoes not
meive a response to this notice within the 30-day period, this debarment will become .final.

Any response should be addressed to Lawrence Rudolph, M m a l Counsel, National Science
Foundation, Omce of the 'General'Goumel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. 'For your information, we are attaching a copy oftheFoundation's regulations
on non-procurementdebarment and FARcSubpart 9.4.

Should you have any questions about the foregoing,please contact         .       Assistant
General Counsel, at (703) 292-3054.

                                                    Sincerely,




                                                    Kathie L. Olsen
                                                    Deputy B b x t o r

Enclosures:
InvestigativeReport
NonprocurementDebarment Regulations
FAR Regulations
45 CFR Part 689
    National Science Foundation
    Office of Inspector General




                    Confidential
                Investigation Report
              Case Number A06070032




This Confidential InvestigationReport is the property of the NSF OIG and may be disclosed outside
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. 5%552,552a.

                                                                                NSF OIG Form 22b ( I 1/06)
CONFIDENTIAL                                                              CONFIDENTIAL

                                    Executive Summary
Allegation:         Fabrication and falsification of research data reported to the Subject's
                    M.S. thesis committee.

OIG                 We received notification from the University that it had completed an
Inquiry:            inquiry into allegations of data fabrication and falsification by a
                    graduate student (the Subject) who received financial support from her
                    graduate advisor's NSF award. We concurred with the University that
                    there was sufficient evidence to warrant a detailed investigation.
University          The University investigation committee, which included members with
Investigation       the particular scientific background relevant to assessing the data,
and Action:     '   concluded by a preponderance of the evidence that the Subject had
                    "intentionally and repeatedly fabricated and falsified data in her
                    master's work, and that this conduct constitutes a significant departure
                    from accepted practice for graduate students." The committee
                    recommended that the University dismiss the graduate student.

                    The deciding official accepted the investigation committee's report
                    and made a finding of "scholarly misconduct" and referred the matter
                    to the university bodies responsible for carrying out the recommended
                    dismissal from the University. The University dismissed the Subject.

OIG's               We reviewed the investigation committee's report finding it to be
Assessment:         accurate and complete in accordance with reasonable procedures.

                           The Act: The Subject fabricated and falsified cell density data
                           and presented .it to her thesis committee.
                           Intent: .The Subject's actions were intentional (purposeful).
                           Standard of Proof: A preponderance of the evidence supports
                           that the Subject committed research misconduct.
                           Significant Departure: The Subject's actions were a
                           significant departure from the accepted practice of graduate
                           students and professionals in her scientific discipline.
                           Pattern: The evidence does not support a pattern of behavior
                           outside of the actions alleged in this particular case.

OIG Recommends: .NSF:
                           send a letter of reprimand to the Subject informing her that
                           NSF has made a finding of research misconduct;
                           debar the Subject from receiving federal funds for a period of 3
                           years from the date of NSF's finding of research misconduct;
                           require the Subject to certify to the Associate Inspector General-
                           for Investigations (AIGI) within one year of NSF's finding
                           completion of a course in data handling that covers record-
                           keeping and laboratory notebooks before submitting any
CONFIDENTIAL                                                CONFIDENTIAL

               proposals to NSF on which she is the PI or CoPI or before
               receiving funds from an NSF award;
               require the Subject to certify that any proposal or report
               submitted to NSF does not contain plagiarism, fabrication, or
               falsification for 3 years following the debarment period;
               require the Subject to submit assurances by a responsible
               official at her place of employment that any proposal or report
               submitted to NSF does not contain plagiarism, fabrication, or
               falsification for 3 years following the debarment period; and
               bar the Subject from serving NSF as a reviewer or in any other
               advisory capacity during the debarment period and for 3 years
               following.
CONFIDENTIAL                                                                       CONFIDENTIAL

                                The Universitfs Inquiry ~ e p o r t '

        In June 2006, the university2 contacted the National Science Foundation (NSF)
Office of Inspector General (OIG) regarding its decision to proceed with a detailed
investigation into an allegation of research misconduct. The subject3 allegedly fabricated
and falsified data in materials submitted to her M.S. thesis committee (Thesis
~ o m m i t t e e ) .The
                      ~ University's inquiry committee determined that the Subject had
received financial support for her work from her advisor's ( ~ d v i s o r ' s )NSF
                                                                                 ~ award
w ward).^
         The University took steps to sequester data, including laboratory notebooks and
digital files from the laboratory computers, and the inquiry committee conducted
interviews. The Subject provided documentary evidence from her home including two
 IVDs onto which she copied material related to her research, but she did not allow the
University to image her personal laptop computer.7 Based on the evidence, the inquiry
committee concluded that the allegation was "of sufficient seriousness to warrant an
investigation," specifically with regard to "inconsistencies, discrepancies and lack of
backup for the data contained in [the Subject's] M.S. research."'

                                            OIG's Inquiry

        We reviewed the Inquiry Report and determined that the Subject had participated
in the pro'ect funded under the Award but separate from the M.S. thesis project in
           s'
question. The Subject's alleged actions also appeared to be within the scope of the
Award. We concluded that there was sufficient evidence to warrant a detailed
investigation. Consistent with our practice, we referred an investigation to the
university" and provided a copy of the referral letter to the Subject.




'The University's Inquiry Report, Tab 1. Binders of supporting evidence referenced in the Inquiry Report
are available on request.




likely have less-Persuasive evidentiary value. Tab 7, page 12.
' Tab I , page 14.
  The Award Interim Report subhitted 12/04/2006 and a collaborator's annual report submitted
07/27/2005, Tab 3.
'O OIG Referral Letter, Tab 4.
CONFIDENTIAL                                                                          CONFIDENTIAL


                            The University's Investigation ~ e o o r t "

        The University appointed an ad hoc investigation committee (the Investigation
Committee) consistent with its policy and procedures.12 The Investigation Committee
reviewed documentary evidence including the Subject's laboratory notebooks, digital
files on laboratory computers, and those digital files from her personal laptop which she
provided on DVD. The Investigation Committee also interviewed the Subject, the
Advisor, the Thesis Committee members, and laboratory personnel who'were'familiar
with the Subject's research activities.I3

        The Investigation Committee initially considered three components of the
allegation:

                 A. The differences between the Subject's March 200614ind May 200615
                    reports to the Thesis Committee, particularly the growth curves;

                 B. The lack of supporting printouts for data reported and inconsistent
                    documentation of data recorded in the Subject's laboratory noteb~ok;'~
                    and

                 C. The possible alteration of digital files between the lothand 1lthof May
                    2006.17

During the course of its work, the Investigation Committee identified one additional area
of concern:

                 D. The lack of supporting data for growth curves presented to the Thesis
                    Committee in December 2005 "which were used as a foundation for
                    [the Subject's] later w ~ r k . " ' ~ , ' ~

        To assess the allegations and address issues raised by the Subject, the
Investigation Committee considered the Subject's training and supervision at the
undergraduate and graduate levels; the Subject's laboratory notebooks and data handling
practices for her M.S. research project; the growth curves presented in December 2005;

II
    The University Investigation Report, Tab 7.
12
    The University Policies and Procedures, Tab 5.
13
    Full transcripts of the recorded interviews were provided to us by the University. Transcripts for the
Subject's, the Advisor's, and the three Thesis Committee Members' interviews are included at Tabs 8
through 13. The remaining transcripts for the department's graduate program director and two laboratory
colleagues are available for review on request.
l 4 The March 2006 Report to the Thesis Committee, Tab 14.
l5 The May 2006 Report to the Thesis Committee, Tab 15.
l 6 The University provided copies of the Subject's notebooks, which are available on request.
I' Tab 7, page 8.
IS
    Tab 7, page 8.
    The December 2005 Report to the Thesis Committee, Tab 17.
              CONFIDENTIAL                                                                      CONFIDENTIAL


              the growth curves presented in March and May; and the alteration of digital files between
              .lo-11 May.
                              I
I
                                                  The Subject's M.S. Thesis Project

                      The allegations involve the Subject's collection and presentation of data that she
              reported that she obtained with a Coulter counter, a device for measuring cell densities.
              In brief, the Subject reportedly prepared three samples to monitor the growth of the single
              cellular organism2' she was studying and measured the cell densities daily. The Subject
          .   plotted the cell densities as a function of time, resulting in growth curves for the cells.
              She then used the growth curves to determine whether the cells populations were in
              growth or non-growth phases. Scheme 1 describes the Subject's general collection and
              presentation of data during the course of her project.



                November Coulter   plotted        December
                  Counter Data            b     GrowthCurves




                                                                                '=?n
                                       as prel~mlnarydata and growth
                                       phases ~dent~fiedto determ~ne
                                       future sampling days

                                                                                Growth Curves



                                                                                                    Presented to
                                                 Counter Data                   Growth Curves         Thesis
                                                                                                    Committee




                                          w
                                                Data Ver~ficat~on

                                              January Sllde Counts




                                                                     Scheme 1

                      The Subject collected cell density data via Coulter counter in November 2005 (the
              November Coulter Counter Data) which she used to generate three growth curves that she
              presented to her Thesis Committee in December 2005~'(the December Growth Curves).
              From the December Growth Curves, the Subject determined which days she would
              measure cell densities under the same experimental conditions in the next phase of her
              project. Thus, the IVovember Data and resulting December Growth Curves were the



                Oxyrrhis marina.
    -..         Tab 17.
CONFIDENTIAL                                                                        CONFIDENTIAL

preliminary experiments upon which the Subject justified to the Thesis Comniittee her
plans for her subsequent experiments.

        In January 2006, the Subject collected cell density data on three new samples with
the Coulter counter (the January Coulter Counter Data). For independent experimental
verification, she also reported that she counted cells on microscope slides prepared from
samples she had taken from the columns (the January Slide Counts). She used the
January Coulter Counter Data to generate growth curves for each of the columns. She
included these growth curves in the materials she presented to her Thesis Committee in a
preliminary report dated 27 March 2006" (the March Growth Curves) and subsequently
in her Masters Thesis on or about 9 May 2 0 0 6 ~(the
                                                    ~ May Growth Curves).

                             The Subject S Training and Supervision

        During the University's inquiry, it appeared that the Subject attributed the alleged
data fabrication and falsification to her inexperience in research practices and a lack of
supervision by her ~ d v i s o r She
                                 . ~ ~continued throughout the University investigation to
assert that she had not been told how to record and maintain her data in a notebook. 25,26,27

        The Investigation Committee determined that the Subject had participated in an
NSF-funded Research Experiences for Undergraduates (REU) at another i n s t i t ~ t i o nand   ~~
"had good academic preparation and appropriate training in research methodology and
practice for a graduate program."29 The Subject joined the Advisor's research group in
the summer of 2004 and began working on the research project in question in the winter
of 2005.~' The Advisor was on sabbatical leave, but within the state, for the 2005-2006
academic year when the suspect data were collected and presented.31 According to the
Investigation Committee, each member of the Thesis Committee "was highly qualified to
oversee and comment on a research project such as [the ~ u b j e c t ' s ] . " ~
                                                                               It~was this Thesis
Committee that reviewed the December Growth Curves that became the underlying
foundation for the Subject's subsequent work, including the March Growth Curves and
the May Growth


2' Tab 14.
23 Tab 15.
24
   The Subject's Response to the Initial Allegation, Tab 2, page       715 and        722.
25
   The Subject "seems to blame her poor recordkeeping and the appearance of data fabrication and
falsification on her lack of training." Tab 7, page 21.
26 The Subject's First Interview, Tab 8 , pages 16-25.
'' The Subject's Second Interview, Tab 9, pages 37-38.
   We have independently confirmed that the Sub'ect artici ated in an REU summer program at the
University of Hawai'i M a o a under NSF award-                    Dee Tab 3. The NSF program office has
informed us that it cannot find the paper jacket for the award, which was awarded based on a non-FastLane
proposal. We cannot determine from the information available whether this REU site included formal
training in research ethics and practices.
29 Tab 7, page 14.
30 Tab 7, page 15; Tab 8, page 35 lines 6-36; and Tab 10, page 48, line 3 -page 50, line 3.
3' Tab 7, page 15; and Tab 10, page 18, lines 8-22.
32 Tab 7, page 15.
33 Tab 7, page 8.
CONFIDENTIAL                                                             CONFIDENTIAL


       The Investigation Committee concluded that the Subject had sufficient training
and experience to make her explanations for the deficiencies in her laboratory notebooks
and data handling "implausible."34

              The Subject's Laboratory Notebooks and Data Handling Practices-

        The Investigation Committee noted that it had originally perceived the allegation
as "what appeared to be a routine situation: a graduate student with sloppy lab technique
had performed substandard research."35 It found "inconsistent and unreliable
documentation of experimental results and many discrepancies between [the Subject's]
laboratory notebook and the results reported to [the Advisor] and [the Thesis
~ o m m i t t e e ] . " However,
                        ~~       the Investigation Committee determined that the
preponderance of evidence showed:

                  The methods used by [the Subject] to collect, record and
                  depict growth curve data constitute a significant departure
                  from accepted practices within the research community. It
                  is customary to record data collected in a systematic and
                  complete fashion. It is also customary to graph data as
                  quantified.[371

         The Investigation Committeecame to this conclusion because it determined that
printouts were not consistently obtained from the Coulter counter that yielded the data
 that led to the growth curves. Instead, the Subject asserted that she wrote down the
 Coulter counter values in her notebook or on scraps of paper that did not get incorporated
'into her notebook.38 Thus, the Subject was unable to show documentary support for the
 data values found in her Excel spreadsheets from which she generated the growth curves.
 Given the lack of documentary support for the allegedly fabricated and falsified data, the
 Investigation Committee relied on an analysis of digital evidence, primarily Excel
 spreadsheets, and preserved slides of the cells of interest.

       The Investigation Committee concluded that the Subject's "notebooks and
computer files . . . reflect highly irregular methods for documentation of her research and
represent a significant departure from standard, accepted




34
   Tab 7, page 22.
35
   Tab 7, page 54.
36
   Tab 7, page 16.
37
   Tab 7, page 54.
38 Tab 7, page 17; and Tab 9, page 34, lines 12-1 6.
39
   Tab 7, page 16. See also Tab 7, page 54.
                                                                                .-




2
    CONFIDENTIAL                                                            CONFIDENTIAL


                                                                                                  I
                                   The December Growth Curves

            As a foundation for her subsequent work, the Subject conducted Coulter counter
    experiments to gather preliminary data to establish the growth patterns of cells,
    specifically to determine under experimental conditions which days the cells would be in
    a lag or stationary phase (little or no cell division) or an exponential phase (rapid cell
    division)(Figure 1).40


                                       Example Growth Curve
                         5




                               1   3     5   7    9    11   13   15   17   19
                                                 T i m (days)
                     Figure 1. Example Growth Curve from the University
                     Investigation ~ e ~ 0 1 - t ~ '


    The Subject reported that she        three parallel cultures (ALS 1, ALS 2, and ALS 3) for
    17 days and recorded daily Coulter counter measurements (the November Coulter
    Counter ~ a t a ) The
                      . ~ ~Investigation Committee found the November Coulter Counter
    Data recorded in an Excel spreadsheet for each culture on each day of the experiment.43
    The Subject presented the growth curves plotted from this data (the December Growth
    Curves)(Figure 2) for the cells she intended to study for her M.S. research, the results of
    which she reported in the March 2006 and May 2006 reports to the Thesis Committee.




    40
       Tab 7, page 15.
    41
       Tab 7, page 28.
    42 Tab 7, page 16.
    43
       Tab 7, page 16.
CONFIDENTIAL                                                                         COIVFIDENTIAL


                       Growth curve of Oxyrrhis marina from coulter
                                    rnuMisizer counts
              4500




                  0
                      I 2     3   4   5    7    8   9   jo   11 12 13 14 15 16 i 7
                                               Date (November)
                  Figure 2. The December Growth


       The Investigation Committee questioned the Subject about the data for these
curves during its first interview with the           The Subject told the Investigation
Committee that it would find the supporting data (i.e.,the Coulter counter printouts or
hand-written Coulter counter results) for the curves in her laboratory notebook.46

        When the Investigation Committee looked at the notebook, it expected to find 5 1
density measurements ("Coulter counter notebook value") corresponding with the 5 1
Excel spreadsheet entries ("Spreadsheet/graphed value") the Subject used to plot the
December Growth Curves (Figure 3).47 However, the Committee found only 6 density
measurements in the notebook, none of which the Subject had recorded correctly in the
spreadsheet.48 In three instances (Figure 3, entries in color), the Committee found that
the measurements recorded in the notebook corresponded to graphed values for the
previous day. For one of those instances, a notebook entry supposing ALS 1 (506.68,
day 9) appears to have been broken down into two spreadsheet values (506 and 507 for
days 8 and 7, respectively).

       During her second interview, the Subject explained that the November Coulter
Counter Data supporting the December Growth Curves "were written on "pieces of
paperyythat were not preserved as part of her notebook."49 The Subject consistently
explained the lack of Coulter counter printouts in her notebook as a result of running out
of paper, not wanting to waste paper, andlor lacking the training to print out the data."


44 Tab 7, page 25.
45
   Tab 7, page 17. See also, Tab 8, page 172, lines 8-20.
46
   Tab 7, page 17. See also, Tab 8, page 172, lines 8-20.
47 Tab 7, page 25.
48 Tab 7, page 25.
49
   Tab 7, page 17. See also, Tab 9, page 34, lines 12-16.
50 Tab 7, page 2 1.
CONFIDENTIAL                                                             CONFIDENTIAL




                 Figure 3. The Investigation Committee's comparison of
                 the Subject's Excel spreadsheet data ("Spreadsheetlgraphed
                 value") with the Subject's supporting Coulter counter plots
                 and notebook entries ("Coulter counter notebook value")
                 for each of the three December Growth Curves (i.e., ALS 1,
                 ALS 2, and ALS 3).51 Entries in color show the
                 Investigations Committee's determination that the Subject
         --      appeared to have shifted some of the entries by
                 approximately one day as well as an apparent weighted
                 average for ALS 1.


        The Investigation Committee compared the Subject's data handling for the
November Coulter Counter Data with experiments she conducted in the preceding and
following months. The Investigation Committee noted that in the month immediately
preceding and the month immediately following the collection of the November Coulter
Counter Data, the Subject accurately recorded cell densities in spreadsheets for several
different cultures and those data were supported by Coulter counter printouts in her
notebook.52 The Subject explained her change in record-keeping to the Investigation
Committee by describing the December Growth Curves based on the November Coulter
Counter Data as "practice growth curve[s], so I didn't think at the time that it was going
to be the basis of everything."53 However, the Subject used the December Growth


51
   Tab 7, page 25.
52
   Tab 7, page 17.
53 Tab 7, page 17. See also, Tab 9, page 36, lines 12-15.
        CONFIDENTIAL                                                             CONFIDENTIAL
I




        Curves as the basis for her proposal to sample future cultures on days 8-1 0 for the
                                                                                                    1
        stationary phase and days 14-17 for the exponential phase."                                 I


                                                                                                    I
                The Investigation Committee found that "this lack of recorded data, inconsistency   I
                                                                                                    I
        in recorded data, and movement of data between days to be clear evidence of both            !
        intentional falsification and intentional fabrication of data." 55                          I

                             The March Growth Curves and the May Growth Curves

                In January 2006, the Subject collected the January Coulter Counter ~ a t a which
                                                                                           '~
                                                                                                    I
        she plotted and presented to the Thesis Committee as the March Growth Curves
        (Figure 4) and subsequently as the May Growth Curves (Figure 9.''
                                                                            . --
                                             g m d c~um &,pin J a   m ~ ~




                                                     ma*                              I
                         Figure 4. The March Growth ~ u r v e s .Note
                                                                   ~ ~ that the
                         vertical, hand-drawn wavy lines indicate a gap in time
                         between 9" and 1lthand the 1 3 ' ~and the 23rdof January.
                         Because of poor copy quality, we have re-traced the jan4-5
                         curve in orange.




    \
        54 Tab 7, page 17.
        55 Tab 7, page 27.
        56 Tab 7, page 17.
        57 Tab 7, page 17.
        58 Tab 7, page 31.
CONFIDENTIAL




                          .   ,       =   , ,   , ,      ,
                      1           3        5     7        9      11       1 3 ' 1 5        17      19   21

                                                D a y a from s t a r t o f E x p e r i m e n t s

                  Figure 5. The May Growth Curves as presented to the
                  Thesis ~omrnittee.~'


        The Investigation Committee found that the Subject had recorded the data in
"multiple formats" in her notebook: some as Coulter counter plots stapled into the
notebook; others handwritten on other sheets of paper stapled into the notebook; and
others handwritten in summary tables.60 The Committee pointed out that no Coulter
counter plots could be found to support densities for days 8-1 8 (i.e., 10-20 January),
which was the pertinent period she proposed to sample based on the December Growth
Curves, as previously de~cribed.~'

        The Subject also took samples of the cultures on days 7-9 (1 1-13 January) and
19-21 (23-25 January) for behavioral studies and preservation on microscope slide^.^'
The Subject manually counted the number of cells as an independent means of assessing
culture densities for those days, resulting in the January Slide         The January
Slide Counts should have confirmed the growth stage of the cells in the columns as
determined by the Coulter counter. The Sub'ect presented a bar graph in her "Addendum
to Masters Report" to the Thesis Committeed in which she compared the January Slide
Counts ("microscope counts") with the January Coulter Counter Data ("coulter counts")
(Figure 6). The Subject's plot demonstrated agreement between the two experimental
methods.




59 Tab 7, page 3 1.
60 Tab 7, page 17.
61 Tab 7, page 18.
   Tab7, page 18.
63 Tab 7, page 18.
64 Tab 16.
                                                                                              CONFIDENTIAL



                                                                                                  --
                                                  Microscope and Coulter counts




                              jan. 25   jan. 24     jan. 23    jan:13    jan. 12   jan. 1'1
                                                            Date
                  Figure 6. The Subject's comparison of her January Slide
                  Counts (blue) and her January Coulter Counter Data (red)
                  presented in her Addendum to Masters ~ e ~ 0 1 - t . ~ '

         Two Investigation Committee members had particular expertise in the techniques
in this case used to count cells and independently examined the Subject's slides.66 While
the two members were able to arrive at similar average values for ~ells/field,6~they
"arrive[ed] at very different culture densities based on these numbers" (Figure 7) than the
Subject reported.68 This is illustrated by comparison of the blue bars between Figures 6
and 7, wherein the January Coulter Counter Data (red bars) remains unchanged between
the two figures.

                                            Microscope and Coulter counts




                          Jan.25   jan.24     jan.23     jan.13     jan.12   jan.41
                                                     Date
                  Figure 7. The Investigation Committee's comparison of its
                  own microscope cell counts (blue) with the Subject's
                  January Coulter Counter Data presented in the May 2006
                  Report (red).69




65
   Tab 16. See also Tab 7, page 47.
   Curricula Vitae available on request.
67 That is, the number of cells within a specifically defined and demarcated area (the field) as viewed under
the microscope.
68
   Tab 7, page 1 8.
69 Tab 7, page 48.
    CONFIDENTIAL                                                                         CONFIDENTIAL

k
             In response to the Investigation Committee's questions about the accuracy of the
    cell densities she reported, the Subject admitted to applying a "fractional correction" to
    her January Slide              The Investigation Committee determined that her
    "correction" was inconsistently applied across the data and that there was no apparent
    "justification" to apply such a "correction" at all.71 Thus, the Subject had applied an
    improper "fractional correction" to the January Slide Counts, which had the effect of
    making the cells look as if they were growing when they were not.72

                       The April Intermediate Growth Curves and Spreadsheet

            The Investigation Committee found one file on the DVDs, which the Subject
    supplied, containing a "transitional [Excel] file" last modified by the Subject on 11 April
    2006 and showing an apparent intermediate step between the March Growth Curves and
    May Growth               The file contained a worksheet with tabular data and one plot
    containing three growth curves (the April Intermediate Growth Curves) (Figure          The
    Investigation committee made particular note of the file's dateltime stamp, which is three
    minutes after the time on the Subject's A ril email to her Advisor reporting her discovery
    and correction of a cut-and-paste error.75%




    70 Tab 7, pages 19 and 45-53.
    71
       Tab 7, page 19.
    72 Tab 7, pages 19,20, and 47. See also Tab 12, page 35, line 9 -page 36, line 25; page 40, line 23 -
    page 41, line 7; and page 45, lines 19 - 2 1.
    73
       Tab 7, page 19.
    74 Tab 7, page 35.
    75 Tab 7, page 19.
    76 Tab 18.
CONFIDENTIAL                                                                CONFIDENTIAL

                 Figure 8. April Intermediate Growth                As plotted
                 here, the y-axis scale ranges of this plot ranges from 0 to
                 1600 cellslml in 200 cells/ml increments.


        The Investigation Committee examined the apparent change in the underlying
data among the March Growth Curves, the April Intermediate Growth Curves, and the
May Growth Curves. The March Growth Curves showed densities for each of the three
cultures taken on 7 different days (Figure 4), whereas the April Intermediate Growth
Curves showed 10 days of measurement^.^^ The Investigation ~Amrnitteenoted "these
data [as plotted] indicate that the cultures did not grow well, achieving densities under
800 cellslml" and that the text of the preliminary re ort in March also specifically noted
that "cell numbers did not go above 1000 cellslml."I:

      In the April 2006 emailg0updating the Advisor on the data supporting the March
Growth Curves, the Subject wrote:

                 My growth curves now look like they should: I had a slight
                 error when I copied & pasted some data, and after fixing
                 that the data looks a lot

The Committee found that the April Intermediate Growth Curves showed 10 days of data
which resulted from the Subject's "fixing" the data. The April Intermediate Growth
Curves and supporting spreadsheet from which the Subject generated them appeared
similar to the March Growth Curves for the early days, but the later days showed
"significantly hi her (ca. 900-1500 cell/ml)" cell densities in the April Intermediate
Growth Curves. k The Investigation Committee also noted that the text accompanying
the April Intermediate Growth Curves continued to indicate incorrectly that the "cell
numbers did not go above 1000 cellslml which was what I was looking for. . .",83
suggesting that the Subject was attempting to produce the results she expected. When
comparing the April Intermediate Growth Curves with the subsequent May Growth
Curves, the Investigation Committee also found similarities between them, noting that the
cell densities "apparently reached up to ca. 1500 ~ e l l s l m l . " ~ ~

       The May Growth Curves displayed data from twice as many days (14) as the
March Growth Curves (7 days) and 4 more days than the April Intermediate Growth
Curves. However, the Investigation Committee found no printouts to support the
additional data.85 In fact, the Investigation Committee found that both the lack of Coulter

77
   Tab 7, page 35
78
   Tab 7, page 18. Those days were January 9, 11, 12, 13, 23,24, and 25.
79
   Tab 7, page 18.
80
   April 2006 Email, Tab 18.
81
   Tab 7, page 18.
82
   Tab 7, pages 18-19.
83
   Tab 7, page 19.
84 Tab 7, page 19.
   Tab 7, page 32.
CONFIDENTIAL                                                                         CONFIDENTIAL

counter printouts for 11-23 January and the lack of microscope slides for 12-22 January
suggested that the Subject intentionally fabricated the data for these dates.86

       The Subject reiterated to the Investigation Committee that the difference among
the March Growth Curves, the April Intermediate Growth Curves, and the May Growth
Curves resulted from a copy and paste error in her Excel spreadsheet.87 The Investigation
Committee found that explanation untenable noting that it:

                 was unable to find any information in [the Subject's]
                 notebooks or [laboratory] computer files that supports this
                 explanation. Should a copy and paste error have occurred,
                 one would expect to see consistent flaws in the numbers
                 throughout the spreadsheet, instead of errors in only some
                  number^.[^^,^^^

However, the Investigation Committee found no obvious cut-and-paste data
manipulations on the April intermediate readsh sheet.'^ The Subject did not explain the
contents of the spreadsheet when the Investigation Committee inquired about it.91

       The Investigation Committee found that "[tlhe lack of correspondence between
[the Subject's January] Coulter count[er Data] and the [January Slide Clounts from her
microscope slides provide further evidence of manipulation and falsificatidn of data."'*

      The Possible Alteration o f Dinital Files Between the 1 othand 11th o f May 2006

        The Investigation Committee considered the possibility that the Subject had
altered digital records of her research, primarily -Excel spreadsheets, copies of which her
Advisor had asked for on 10 May 2006, the day after her Advisor had received the report
containing the May Growth Curves. The Investigation Committee noted that "[all1 but
two of the files on this DVD [one of two] were modified on the evening of May 10,
raising concerns that the files'had been manipulated."93 The Subject explained the
modifications were to label the spreadsheets and make changes to figures in response to
her Advisor's comments. The Investigation Committee was unable to investigate the
allegation further because the Subject had refused requests to make her laptop hard drive
available to the Investigation Committee. Thus, the Investigation Committee was unable
to draw any conclusions with regard to this allegation.


86 Tab 7, page 32.
87
   Tab 7, page 19.
88 Tab 7, page 19.
89
   The Investigation Committee has distinguished between computer files fiom the laboratory computers
imaged during the inquiry and the DVD files provided by the Subject in lieu of allowing the University to
image her personal laptop hard drive.
90
   Tab 7, page 19.
91
   Tab 7, page 19; and Tab 9, page 130, line 17 - page 132, line 6.
92 Tab 7, page 28.
93 Tab 7, page 53.
CONFIDENTIAL                                                               CONFIDENTIAL

                           The Investiaation Committee 's Conclusion

       Based on its investigation, the Investigation Committee concluded that the
Subject:

                 was careless in her data recording and fails to have the
                 understanding of the scientific principle, scientific method,
                 and the subject area of her research customary for a
                 master's level graduate student. It is the [Investigation]
                 Committee's opinion, however, that neither her limited
                 knowledge nor her claims of inadequate training can
                 explain [her] apparent disregard for standard scientific
                 protocol. Rather, [she] chose to falsify and fabricate her
                 data in order to obtain the desired growth curves. The
                 purpose of these actions appeared to be to obscure the
                 deficiencies in her research.



                 The [Investigation] Committee has concluded that the
                 preponderance of the evidence indicates that [the Subject]
                 knowingly and intentionally committed multiple instances
                 of data falsification and fabrication in the course of her
                 master's study. . . Because of the pattern and the extent of
                 data falsification and fabrication that was revealed during
                 the course of this investigation, the [Investigation]
                 Committee unanimously recommends that [the Subject]
                 should be dismissed from the [ ~ n i v e r s i t y ] . [ ~ ~ ]


           The Subiect's Response to the Investigation Committee's ~ e p o r t ~ '

       The Subject continued to deny the allegation that she had fabricated and falsified
data supporting her Master's Thesis.

                        The Universitv's Action Against the Subiect

       The Deciding Official concurred with the Investigation Committee and found that
the Subject had committed research m i ~ c o n d u c t .The
                                                        ~ ~ Deciding Official also concurred
with the recommendation for the Subject's dismissal from the ~niversity.~'In
accordance with the University's policies and procedures for student misconduct, the


94
   Tab 7, pages 55-56.
95
   The Subject's Response to the Investigation Committee Report, Tab 10.
96 Tab 2 1, page 2.
97 Tab 21, page 2.
                                                           /
    CONFIDENTIAL                                                            CONFIDENTIAL

    matter was referred for disciplinary proceedings under the Student Conduct         The
.   Subject requested a formal hearing, which was granted and which ultimately resulted in
    the Subject's dismissal from the

                                               OIG's Assessment

      ,     We notified the Subject that we had received the Investigation Committee's report
    and offered her the opportunity to respond with any additional comments.'00 She chose
    not to respond.

            We have reviewed the Investigation Committee's report and the University's
    conclusions and have determined that the Investigation Committee's investigation was
    accurate and complete in accordance with reasonable procedures.'0' We also agree with
    the University in its assessment of the Subject's involvement with an NSF-funded
    activity and therefore NSF's jurisdiction in this matter.'02

           A finding of misconduct requires that (1) there be a significant departure from
    accepted practices of the relevant research community, (2) the research misconduct be
    committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by
    a preponderance of the evidence.'03

                                                      The Act

           We concur with the University that the preponderance of evidence supports the
    conclusion that the Subject fabricated and falsified her November and January data from
    which she produced the December, March, and May Growth Curves. Sloppy record-
    keeping and data management generally do not rise on their own to research misconduct.
    However, the dearth of Coulter counter printouts, notebook entries, and microscope slides
    to support the November and January data, which is inconsistent with the Subject's
    demonstrated practice before and after she collected these data, negates any assertion by
    the Subject that she did not know how to manage her data properly. Prior to entering
    graduate school, the Subject participated in research activities; including an NSF-funded
    REU. Although it is unclear what specific formal training she had received in preparing
    laboratory notebooks and managing raw data, her description of her relationship with and
    close oversight by her REU mentor makes it seem unlikely that her past research              I

    experiences left her entirely devoid of any basic skills in appropriate practice.'04

            Consequently, the unexplained absence of raw data to support many of the data
    points in the Excel spreadsheets used to plot the growth curves strongly suggests that the
    Subject fabricated these data. Furthermore, the Subject's use of an unexplained scaling

    98 Final University Letter to OIG 'Tab 2 1, page 1.
    99 ~     b page 1.
          a 21,
    100
        01G Letter to the Subject, Tab 6.
    lo' 45 C.F.R. 689.9.
    102
        Tab 21, final section.
    Io3 45 C.F.R. 689.2(c).
    104
        Tab 8, page 12, line 8 through page 13, line 5.
CONFIDENTIAL                                                              CONFIDENTIAL

factor ("fractional correction") to generate growth curves, to suggest that the cultures
were growing when they were not, is further evidence of falsification.

                                                    Intent     .   '




       We concur with the Investigation Committee that the preponderance of the
evidence shows that the Subject intentionally (i.e., purposefully) fabricated and falsified
the November and January data supporting the December, March, and May Growth
Curves reported to the Thesis Committee.

        The Subject described the November Coulter Counter Data and resulting
December Growth Curves as "practice growth curve[s], so I didn't think at the time that it
was going to be the basis of everything."'05 This is notable given the Investigation
Committee's finding that the Subject's notebook demonstrated a much more complete
data collection practice in October and December. It is unlikely then that the Subject did
not know how to record and manage the data appropriately during November nor that she
would not have recognized the inappropriateness of presenting unsupported "practice
growth curves" as the underlying foundation for her future data collection.

        In January the Subject collected both the January Coulter Counter Data and the
January Slide Counts. However, the lack of supporting data for the specific sampling        ,
days as determined by the December Growth Curves combined with the unexplained
"fractional correction" for the values entered in the spreadsheet support a conclusion of
purposeful intent. This conclusion is further supported with the independent slide counts
of the Investigation Committee experts who found low cell densities indicating no
growth. It is unlikely that the Subject, regardless of her initial level of experience with
the experimental techniques, would not have had sufficient experience at that point in her
graduate work to at least question the marked disparity as displayed in Figure 7. The,
preponderance of the evidence supports the conclusion that the Subject acted
intentionally (purposefully) to fabricate and falsify the data she presented to the Thesis
Committee to support her contention that the cells were growing as predicted by the
December Growth Curves.

                                             Standard o fProof

       The preponderance of the evidence shows that the Subject intentionally (i.e.,
purposefully) intended to deceive the Thesis Committee with fabricated and falsified data
while receiving support from an NSF-funded award. Therefore, we conclude that the
Subject's actions warrant a finding of research misconduct.




105   Tab 7, page 17. See also, Tab 9, page 36, lines 12-15.
CONFIDENTIAL                                                                  CONFIDENTIAL



                                OIG's Recommended Disposition

     When deciding what appropriate action to take upon a finding of misconduct,
NSF must consider:

                    (I) How serious the misconduct was; (2) The degree to
                    which the misconduct was knowing, intentional, or
                    reckless; (3) Whether it was an isolated event or part of a
                    pattern; (4) Whether it had a significant impact on the
                    research record, research subjects, other researchers,
                    institutions or the public welfare; and (5) Other relevant
                    circumstance^.'^^
                                            Seriousness

         The collection and management of reliable and accurate data are essential to the
progress of science. The Subject's data upon which she based the December Growth
Curves and her subsequent work toward her M.S. degree lacked experimental support.
The Thesis Committee had no reason to question the data at that time, and the Subject's
work progressed under continued NSF support within the parameters derived from that
initial fabricated and falsified work. It was not until months later that the Advisor and
Thesis Committee had reason to question not only the December Growth Curves but also
the March and May Growth Curves. Although the broader scientific community was not
harmed through publication of the fabricated and falsified data, NSF funds and
University resources were invested in the development of the Subject as a scientist over
the 7-8 month period during which the misconduct occurred. The thesis supervision
process at the University appears to have identified the problem and to have responded to
it accordingly.

                       Degree to which the Act was Intentional (Purposeful)

        We concur with the University that the Subject's actions were an intentional effort
to report fabricated and falsified data to the Thesis Committee in an effort to obtain her
M.S. degree. Throughout the Investigation Committee's work the Subject has asserted
that she did not have the appropriate training or guidance from the Advisor which might,
under some circumstances, mitigate her level of intent. However, a lack of training and
guidance does not mitigate the intentional presentation of unsupported "practice" data to
the Thesis Committee as the foundation for subsequent work. Such action appears to
aggravate the situation, particularly when the absence of recorded data appears to be the
exception to her demonstrated laboratory practice as it was before and after she collected
the November Data. The Subject purposefully submitted the fabricated and falsified data
in order to obtain her graduate degree while supported under an NSF award to the
Advisor.


'06   45 C.F.R. 689.3(b).


                                                                                        20
                                                 t




CONFIDENTIAL                                                                         CONFIDENTIAL



                                         Pattern o f Behavior

        The evidence considered does not support a pattern of behavior beyond the
actions described in this report.

                                  Impact on the Research Record

           The evidence shows no impact on the published research record or in NSF annual
reports.

                                          Recommendations

        Based on the evidence, OIG recommends that NSF:

        send a letter of reprimand to the Subject informing her that NSF has made a
        finding of research misconduct;
        debar the Subject from receiving federal funds for a period of 3 years from the
        date of NSF's finding of research misconduct;
        require the Subject to certify to the Associate Inspector General for Investigations
        (AIGI) within one year of NSF's finding completion of a course in data handling
        that covers record-keeping and laboratory notebooks before submitting any
        proposals to IVSF on which she is the PI or CoPI or before receiving funds from
        an NSF award;
        require the Subject to certify to the AIGI that any proposal or report submitted to
        NSF does not contain plagiarism, fabrication, or falsification for 3 years following
        the debarment period;
        require the Subject to submit to the AIGI assurances by a responsible official at
        her place of employment that any proposal or report submitted to NSF does not
        contain plagiarism, fabrication, or falsification for 3 years following the
        debarment period; and
        bar the Subject from serving NSF as a reviewer or in any other advisory capacity
        during the debarment period and for 3 years following.



                The Subiect's Response to OIG's Draft Investigation Report

        We sent our Draft Investigation Report to the Subject's last known address,
offering her the opportunity to make comments within 30 days of receipt.'07 The Subject
did not provide a response.



107
  Our cover letter to the Subject offering an opportunity to respond to OIG's Draft Investigation Report,
Tab 23.
